         AUDIT REPORT
             12-08




Maintaining Effective Control over
      Employee Overtime

         March 30, 2012
Date
March 30, 2012
To
Acting Public Printer
From
Inspector General
Subject
Audit Report
Maintaining Effective Control over Employee Overtime
Report Number 12-08

Enclosed please find the subject final report. Please refer to the “Results in
Brief” for the overall audit results. Our evaluation of your response has been
incorporated into the body of the report. We consider management’s
comments responsive to the recommendation. The recommendation is
resolved and will remain open pending completion of the agreed upon
corrective actions.

We appreciate the courtesies extended to the audit staff. If you have any
questions or comments about this report, please do not hesitate to contact
me at (202) 512-0039.




Michael A. Raponi
Inspector General

Enclosure

cc:

Assistant Public Printer, Operations
Assistant Public Printer, Superintendent of Documents
General Counsel
Managing Director Plant Operations
Security Director
Chief Information Officer
Chief Financial Officer
Acting Public Printer
Report 12-08
March 28, 2012
Page 2 of 2


Managing Director Customer Services
Director Official Journals of Government
Director Publication and Information Sales
Chief Technology Officer
Contents

Introduction ........................................................................................................................................................ 1

Results in Brief ................................................................................................................................................... 2

Background.......................................................................................................................................................... 4

Results and Recommendations ................................................................................................................. 5

Appendix A – Objectives, Scope, and Methodology .......................................................................... 9

Appendix B - Acronyms Used in the Report.........................................................................................14

Appendix C - Management’s Response ..................................................................................................15

Appendix D - Status of Recommendation..............................................................................................16

Appendix E - Report Distribution .............................................................................................................17

Major Contributors ..........................................................................................................................................18




                                                                                 i
                         Office of Inspector General

Report Number 12-08                                          March 30, 2012


       Maintaining Effective Control over Employee Overtime

Introduction

Generally, Federal employees are expected to complete assigned duties during
regular working hours. On occasion, however, employees may need to work
overtime. Overtime compensation is usually based on an employee’s hourly rate of
pay and paid for work done exceeding 8 hours in a day or 40 hours in an
administrative workweek. GPO is subject to the requirements of the Fair Labor
Standards found in the Title 29 of the United States Code of Federal Regulations
which requires the payment of overtime at “not less than one and one‐half times the
regular rate at which he is employed.”

According to GPO Directive 640.7D, “General Pay Administration,” GPO’s policy
requires that whenever possible approval for requests for overtime should be given
in advance. Each overtime request must include the names and/or number of
employees scheduled for overtime and the number of hours authorized to work.
The guidance states that the Public Printer, Deputy Public Printer, or Department,
Service, Staff, or Office Head, as appropriate must approve requests for Overtime.

Office of Management and Budget (OMB) Circular Number A-123, “Management’s
Responsibility for Internal Control,” requires that managers develop and maintain
effective internal controls. Effective internal controls provide assurance that
significant weaknesses in the design or operation of internal controls that could
adversely affect an agency’s ability to meet its objectives would be prevented or
detected in a timely manner.

This audit was conducted in support of our goal to assist GPO managers with the
economy and efficiency of GPO operations. We conducted this audit to answer the
following question: “Do opportunities exist to enhance controls and provide
assurance that the overtime being paid is necessary?”

To achieve the objective, we reviewed policies and procedures in place from Fiscal
Year (FY) 2010, to February 2012. We analyzed payroll and overtime records from
the GPO automated time and attendance system—Web Time and Attendance
System (WebTA). We also interviewed management officials responsible for both
establishing and monitoring overtime policies and for approving overtime. We
analyzed records from the following organizations: Finance and Administration,
Information Technology and Systems (IT&S), Security Services, Customer Services,
Plant Operations—Proof and Copy Division, Plant Operations—Offset Press

                                         1
Division, Official Journals of Government, and Business Product Services. To test
overtime authorization controls, we statistically sampled 13,185 overtime hours of
the 18,393 overtime hours paid between October 1, 2011, and December 31, 2011.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Our objective, scope, methodology, and criteria are
detailed in Appendix A.

Results in Brief

GPO has made significant reductions in overtime costs. For instance, in FY 2011,
overtime costs dropped $4 million, approximately 33 percent, from 192,073 hours
in FY 2010 to 129,298 hours in FY 2011. We commend GPO for this
accomplishment.

As a result of our audit, we want to bring to GPO’s attention, risks that could
jeopardize its ability to maintain and/or achieve future overtime cost reductions.

For the first quarter of FY 2012, we estimate that 14,163 paid overtime hours out of
18,393 hours (77 percent) were not authorized prior to employees working
overtime. GPO managers told us this was largely due to oversight and a long
standing practice of approving overtime while certifying payroll at the end of each
pay period. We also noted that GPO policies do not require an employee’s
supervisor to obtain approval before working overtime. We estimate GPO paid
$741,794 worth of overtime in the first quarter of FY 2012 without prior approval.
We believe GPO may have paid at least $2,967,176 worth of overtime in FY 2011 if
the same conditions were applied to paid overtime in FY 2011.

We estimated that 6,433 paid overtime hours (35 percent) out of 18,393 hours were
not authorized by GPO’s designated approving official.

Recommendations

We recommend the Acting Public Printer consider (a) modifying GPO Directive
640.7D to require supervisors to obtain prior approval of his or her designated
management official before asking employees to work overtime; (b)reiterating
GPO’s requirement to approve overtime request prior to employees working
overtime; (c) establishing a process to monitor compliance with the Directive.




                                          2
Management’s Response

Management partially concurred with part (a) stating that it will perform a further
review of the Directive’s language for purposes of clarity. Management concurred
with Part (b) stating that the Chief Human Capital Officer will reiterate to all
Business Unit Directors that overtime must have prior approval whenever possible.
Management also concurred with Part (c) stating that the process to monitor
compliance with the Directive will be performed by the Business Unit Directors.
The complete text of management’s response is in Appendix C.




                                         3
Background

Title 44, United States Code of Federal Regulations, Section 305 requires that the
Public Printer may employ journeymen, apprentices, laborers, and other persons
necessary for the work of the Government Printing Office at rates of wages and
salaries, including compensation for night and overtime work, he/she considers for
the interest of the Government and just to the persons employed. The Public Printer
may grant an employee pay on an annual basis compensatory time off from duty
instead of overtime pay for overtime work.

GPO’s overtime hours and costs for FY 2010 and FY 2011 were $10.8 million
/192,073 hours and $6.8 million /129,298 hours respectively.

  Table 1. GPO 1st Quarter FY 2012 Overtime Hours by Largest Users

                   Business Unit or Division                 Hours       Cost
   Plant Operations – Offset Press Division                   7,325    $323,670
   Plant Operations – Proof and Copy Markup Division          3,997     218,404
   Security Services                                          2,391     127,703
   Information Technology and Systems                         1,139      80,379
   Official Journals of Government*                                1,117   62,183
   Customer Services*                                              1,037   52,081
   Business Products and Services*                                   749   20,666
   Finance and Administration                                        638   34,918
   Total                                                         18,393 $920,004
   *The majority of the overtime costs incurred by the Offices of Customer
   Services, Official Journal’s of Government, and Business Products and
   Services are performed in service to customer agencies and charged back
   to those customer agencies and recognized as revenue by GPO.




                                              4
Results and Recommendations

Controls Over Overtime Need Enhancing to Ensure It Is Necessary

Our examination of a sample of overtime 1 incurred during the first quarter of FY
2012 disclosed that 77 percent of overtime hours were incurred without pre-
authorization. Table 2 depicts the results by GPO organization.

Table 2. Results of OIG Test of Overtime Approvals– 1st Quarter FY 2012

                                                         Overtime         Overtime Hours       Percent
         GPO Business Unit or           Overtime          Hours            Without Pre-      Without Pre-
                Division                 Hours           Sampled           Authorization     Authorization
    Plant Operations – Offset Press           7,325           5,259                  3,639        69
    Plant Operations – Proof and              3,997           3,989                  3,155        79
    Copy Markup
    Security Services                          2,391           1,174                 1,174       100
    IT&S                                       1,139             607                   607       100
    Official Journals of                       1,117             523                   523       100
    Government
    Customer Services                          1,037                334               333        100
    Business Products and                        749                755               755        100
    Services
    Finance and Administration                   638             545                   21          4
                  Total                       18,393          13,186               10,207         77


We considered the overtime not authorized properly if no documentation exists to
show the overtime was authorized in advance, per Instruction 640.7D. Several
Business Unit Heads told us that due to the nature of the overtime incurred within
their organization, it was not always possible to approve overtime in advance. In
those cases we did not question the authorization if it was approved within two
business days after the overtime was worked.

In addition, we found that 35 percent (6,433 hours) of the overtime sampled was
approved by a supervisor other than a Business Unit Head. None of the hours for
(1) Security Service, (2) IT&S, (3) Customer Services, (4) Official Journals of
Government, and (5) Business Products and Services were approved by the
Business Unit Head. For a large organization like Plant Operations, we accepted
approval by the Production Manager.

GPO Managers Reasoning

We discussed with senior management from each of the business units and were
told:



1
    See Appendix A for a description of our sampling methodology.

                                                     5
Plant Operations. The Production Manager told us that Plant Operations had clear
policies and procedures requiring that all overtime be pre-authorized in writing by
the Production Manager. The Production Manager did not have an explanation as
to why some of the overtime hours were not pre-authorized, other than oversight.

Security Services. The GPO Security Officer told us his practice was documenting
the approval of overtime through WebTA after the overtime had been incurred. The
Security Officer estimated that 90 percent of the overtime incurred was of a last-
minute, emergency nature making pre-authorization difficult.

IT&S. The Chief Information Officer told us that upon arrival at GPO in April 2011,
the Office of IT&S was not properly controlling and documenting the authorization
of overtime. The Chief Information Officer told us beginning in September 2011, he
began pre-authorizing overtime and required emails from Division Directors in
order to have overtime authorized. Beginning in December, 2011, the Chief
Information Officer implemented a specific overtime request format that provided
feedback on authorized overtime usage for the previous week, and documented
overtime requested for the next week.

Customer Services. The Managing Director of Customer Services told us that his
office had no documentation of overtime authorization. The Managing Director
emphasized that much of the overtime incurred by his organization was charged
back to the customer agencies.

Finance and Administration. The Chief Financial Officer documented pre-
authorization of overtime in most instances in accordance with GPO Instructions.

Official Journals of Government. The Managing Director told us that his offices’
practice was to document the approval of overtime through WebTA, at a
management level below that of Managing Director and after the overtime had been
incurred. The Managing Director told us that much of the overtime incurred by his
office was in supporting Congress during off hours and in those cases it is difficult to
pre-authorized overtime.

Business Products and Services. The Managing Director told us that all of the
overtime in our sample for analysis, was incurred by staff at the Laurel, MD and
Pueblo, CO distribution facilities. The Managing Director also stated that when
workload dictates the necessity for overtime to meet customer demand, managers
at both facilities work in cooperation with the customer agencies to determine when
and how much overtime is required. The customer agencies receive an invoice each
month that includes a separate line item detailing the overtime charges from the
previous month. For the Laurel facility, a representative from the customer agency
would send an email to the GPO Director of Distribution Services and Outreach for
concurrence authorizing the need for an overall amount of overtime for a certain
project. For the Pueblo facility, overtime authorizations were documented by a GPO
form (Form 3389, “Superintendent of Documents Overtime Request” ) which is no
                                           6
longer in use . Although the overtime hours on the forms matched the overtime
hours from our sample, there was no evidence of supervisory authorization and
approval.

Risks of Working Overtime Without Pre-Authorizaton

Working overtime without pre-authorization could create a situation of allowing
employees to initiate overtime work on their own without management’s prior
approval. This could lead to unnecessary or excessive overtime costs. Table 3
depicts the dollar value of estimated overtime costs associated with overtime
without pre-authorization.

          Table 3. Estimated Dollar Value of Overtime Not Pre-Authorized
                                     (1st Quarter FY 2012)
                                                            Estimated Dollar
                      GPO Business Unit or Division              Value
           Plant Operations – Proof and Copy Markup                $223,915
           Plant Operations – Offset Press                          172,729
           Security Services                                        127,703
           Information Technology and Systems                         80,379
           Official Journals of Government                            62,184
           Customer Services                                          52,081
           Business Products and Services                             20,673
           Finance and Administration                                  2,130
                                   Total                           $741,794

Several senior GPO managers told us that when they personally started to pre-
approve overtime, overtime hours and costs for their organizations dropped
significantly.

Applying those same conditions for paid overtime in FY 2011, we believe that GPO
would have paid at least $2,967,176 in overtime that was not authorized in advance
($741,794 multiplied by four quarters).

Recommendation

We recommend the Acting Public Printer consider (a) modifying GPO Directive
640.7D to require supervisors to obtain prior approval of his or her designated
management official before asking employees to work overtime; (b)reiterating
GPO’s requirement to approve overtime request prior to employees working
overtime; (c) establishing a process to monitor compliance with the Directive.

Management’s Response

Management partially concurred with part (a) stating that it will perform a further
review of the Directive’s language for purposes of clarity. Management concurred
with Part (b) stating that, by April 30, 2012, the Chief Human Capital Officer will

                                            7
reiterate to all Business Unit Directors that overtime must have prior approval
whenever possible. Management also concurred with Part (c) stating that the
process to monitor compliance with the Directive will be performed by the Business
Unit Directors. The complete text of management’s response is in Appendix C.

Evaluation of Management’s Response

Management’s planned action is responsive to the recommendation. The
recommendation is resolved but will remain open pending completion of the
planned actions.




                                        8
Appendix A - Objectives, Scope, and Methodology

We performed the audit from December 2010 through February 2012 at the GPO
Central Office in Washington, D.C. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence that will
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Objectives

We conducted this audit to answer the following question: “Do opportunities exist
to enhance controls and provide assurance that the overtime being paid is
necessary?”

Scope and Methodology

To accomplish our objective, we performed the following:

   •   Researched Federal and GPO criteria on pay and overtime;

   •   Obtained and analyzed payroll and overtime data from both GPO’s payroll
       support system and its automated time and attendance system Web Time
       and Attendance System (WebTA).

   •   Interviewed GPO management officials responsible for both establishing and
       monitoring GPO’s overtime policies and for approving overtime for the
       Agency’s major overtime users. Those officials included: the Chief Financial
       Officer, Comptroller, Director of Cash Management Services, Chief of Payroll,
       Managing Director Customer Services, Director of Operations Support,
       Security Director, Chief of Police, Chief Information Officer, Chief Systems
       Integration Officer, Manager IT&S Systems Integration Division, Managing
       Director of the Office of Official Journals of Government, Managing Director of
       Publications and Information Sales, Special Assistant Office of Strategic
       Human Capital Policy, Managing Director of Plant Operations, Plant
       Production Manager, Plant Superintendants, and numerous GPO line
       supervisors.




                                          9
Appendix A

   •   Analyzed a sample of overtime for the 1st quarter of FY 2012.

Sampling Methodology

To test whether GPO properly authorized overtime we tested a statistical random
sample of days in which overtime occurred during the first quarter of FY 2012
(October through December 2011) using the following steps:

1. From bi-weekly/pay period labor reports obtained from the GPO Comptroller, we
created a report of all GPO overtime for the first quarter of FY 2012 (—pay periods
20 through 26).

2. Sorted the report created in Step 1 by Business Unit and then created separate
reports for the organizations with the most overtime. Those Business Units were:

   •   Finance And Administration
   •   IT&S
   •   Security Services
   •   Customer Services
   •   Plant Operations - Proof and Copy Division
   •   Plant Operations - Offset Press Division
   •   Official Journals of Government
   •   Business Product Services

Those Business Units represented more than 40 percent of GPO's overtime.

3. We used "days in which overtime occurred" as our sampling unit. We found that
most of the overtime approvals were done by day. That is, the documentation
would show a certain number of employees were needed to work a certain number
of hours on a particular day and then the supervisor would approve for that
particular day. Sampling by the individual instances of overtime was deemed to not
be cost beneficial because there 4,756 such occurrences.

4. For each of the above separate reports created in Step 2, we numbered every day
in which overtime was incurred. Those numbered days created the audit universe.
Thus, we had a separate universe for each of the eight Business Units created above.




                                         10
Appendix A

5. Using EZ Quant sampling software available through the Defense Contract Audit
Agency 2 we determined sample sizes for each of the eight organizations using the
following parameters:

    •   Sample Type - Attribute Estimation Sample since we were estimating the
        frequency of one particular error, i.e., overtime not authorized in accordance
        with GPO Instructions.

    •   Estimated Error Rate - 50%. Prior audit work disclosed that 55% of the
        overtime was not properly authorized; however, to be conservative and
        provide a larger sample size we used the EZ Quant maximum which was
        50%.

    •   Confidence Level - 90%, recommended by the Defense Contract Audit
        Agency’s Contract Audit manual.

    •   Critical Error Rate- 5% recommended by the Defense Contract Audit
        Agency’s Contract Audit manual.

6. Based on each sampled organization's calculated sample size we again used EZ
Quant to generate that same amount of random numbers for each organization. We
then highlighted those numbered days to be tested (from the universe of overtime
days created in Step 4), printed out the reports, and then met with each
organization's Director to provide them our sample and to explain the scope and
purpose of our test and to ask them to pull the requested documentation which was
evidence of prior approval.

7. We calculated overtime rates following Title 5, Code of Federal Regulations,
Section 550.113, paragraph (d)(1) by taking each employee’s base salary as of
December 31, 2011, dividing by 2,087 and multiplying the quotient by one and one-
half.




2The Defense Contract Audit Agency is under the authority, direction, and control of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer, Department of Defense. The Defense
Contract Audit Agency performs all necessary contract audits for the Department of Defense and
provides accounting and financial advisory services regarding contracts and subcontracts. The
Defense Contract Audit Agency also provides contract audit services to other Federal agencies as
appropriate.

                                                 11
Appendix A

9. We calculated the estimated costs of the improperly authorized overtime for each
Business Unit or Division by multiplying the total overtime hours for the 1st quarter
of FY 2012 by our best estimate (Point Estimate) error rate and multiplied that
product by the Business Unit or Division’s hourly overtime rates calculated in
Step 8. The Point Estimate, Lower Limit Estimate, and Upper Limit Estimates for
each sampled Business Unit or Division were calculated by the EZ Quant software as
follows:

                                                   Point     Lower    Upper
                Business Unit or Division         Estimate   Limit    Limit
        Plant Operations - Offset Press            67.64      56.9     77.3
        Plant Operations - Proof and Copy
        Markup                                     77.42     87.1      88.7
        Security Services                           100      93.4      100
        Information Technology and Systems          100      94.3      99.4
        Finance and Administration                 6.67       2.7      18.5
        Customer Services                           100      93.3      100
        Official Journals of Government             100      94.3      99.5
        Business Products and Services              100      97.3      100


Internal Controls Reviewed

The objectives of our audit were to review and evaluate the management controls
associated with management of overtime. According to GPO Instruction 825.18A,
“Internal Control Program,” May 28, 1997, paragraph 7(a), “The Public Printer has
the overall responsibility to ensure that an effective internal control structure is
established and maintained by GPO’s managers for all programs, functions, and
activities.”

We determined that the following internal controls were relevant to our audit
objective:

Program Operations – Policies and procedures the GPO management implemented
to reasonably ensure that the overtime approval process meets GPO’s objectives.

Validity and Reliability of Data – Policies and procedures that management has
implemented to reasonably ensure that valid and reliable data are obtained,
maintained, and fairly disclosed in reports (See Computer-Generated Data below).

Compliance with Laws and Regulations – Policies and procedures that management
has implemented to reasonably ensure that resource use is consistent with laws and
regulations.


                                             12
Appendix A

The details of our examination of management controls, the results of our
examination, and noted management control deficiencies are contained in the
report narrative. Implementing the recommendations in this report should improve
those management control deficiencies.

Computer-Generated Data

We relied on computer-generated data during this audit. Specifically, we relied on
overtime data obtained from the GPO time and attendance system WebTA. We
assessed the reliability of the data but did not test general system and application
controls. In order to test overtime data reliability, we compared data from WebTA
to data provided by GPO’s service provider for payroll processing —the U.S.
Department of Agriculture’s National Finance Center (NFC); discussed overtime
issues with supervisors; discussed data entry procedures, discrepancies and system
data transfers with system administrators; and compared electronic entries to
available manual records. From those tests, we determined that the data was usable
for meeting the objectives of our audit.




                                        13
Appendix B - Acronyms Used in the Report

AWOL      Absent Without Leave
CFO       Chief Financial Officer
CWS       Compressed Work Schedule
GPO       Government Printing Office
GS        General Schedule
FY        Fiscal Year
IT&S      Information Technology and Systems
LWOP      Leave Without Pay
OFA       Office of Finance and Administration
PG        Printing Office Grade
WebTA     Web Time and Attendance System




                                    14
Appendix C - Management’s Response




                15
Appendix D - Status of Recommendation


 Recommendation
      No.                     Resolved   Unresolved   Open/ECD*   Closed
       1                         x                    9/30/12
*Estimated Completion Date.




                                            16
Appendix E - Report Distribution

Assistant Public Printer, Operations
Assistant Public Printer, Superintendent of Documents
General Counsel
Managing Director Plant Operations
Security Director
Chief Information Officer
Chief Financial Officer
Managing Director Customer Services
Director Official Journals of Government
Director Publication and Information Sales
Chief Technology Officer




                                       17
Major Contributors to the Report

Karl Allen, Supervisory Auditor
David Hilburg, Senior Auditor
Patricia Mitchell, Senior Auditor




                                    18
